OIG Audit Report GR-40-01-004
Compliance with Standards Governing Combined DNA Index 
System Activities
Kentucky State Police Forensic Laboratory
Frankfort, Kentucky
Audit Report GR-40-01-004

May 2001

Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of compliance with standards 
governing Combined DNA Index System (CODIS) activities at the Kentucky State Police Forensic Laboratory 
(Laboratory).  CODIS is a national computerized information repository maintained by the Federal Bureau 
of Investigation (FBI) that permits the storing, maintaining, tracking, and searching of DNA specimen 
information in order to facilitate the exchange of DNA information by law enforcement agencies.  
Laboratories that participate in CODIS perform DNA analysis on specimens from convicted offenders or 
crime-scene evidence.  These laboratories use special software, provided free of charge by the FBI, to 
organize and manage the DNA profiles and related information.  The software also compares DNA profiles 
from participating laboratories and notifies the appropriate laboratories when two or more DNA profiles 
match.
In addition to authorizing CODIS, the DNA Identification Act of 1994 specified several standards for 
laboratories that contribute profiles to the FBI National DNA Index System (NDIS).  A laboratory must 
certify that it is performing DNA analysis in compliance with the FBI standards governing laboratory 
operations.  Further, a Memorandum of Understanding (MOU) is enacted between the FBI and participating 
state laboratories establishing the responsibilities of each party as part of CODIS.  The MOU establishes 
general and specific standards that are to be followed by a laboratory in order to participate in CODIS 
and utilize NDIS, including the upload of DNA profiles to NDIS.
Our audit covered the period from the implementation of CODIS at the Laboratory in February 1995 through 
November 2000.  The overall objective of the audit was to determine the extent of the Laboratorys 
compliance with standards governing CODIS activities.  To address the overall objective, we considered:


the extent to which the Laboratory complied with the FBI NDIS participation requirements,


the extent to which the Laboratory complied with federally legislated laboratory Quality Assurance 
Standards (QAS) for laboratories, and 



the appropriateness of the Laboratorys DNA profiles contained in CODIS databases.



With the following exceptions, we found that the Laboratory complied with standards governing CODIS 
activities that we tested.


With respect to QAS requirements, we noted that the Laboratory had not identified in writing the 
reagents it considered critical and had not monitored the testimony of two of its four analysts who 
have testified during the preceding 2 years.  Laboratory officials stated that they would amend their 
Quality Control/Quality Assurance Protocol to specify which reagents they consider critical, and that 
they would institute procedures that would ensure the testimony of all analysts are monitored on an 
annual basis in the future.  


With respect to NDIS requirements, we noted that of the 200 DNA profiles reviewed, the Laboratory 
uploaded three DNA profiles to NDIS that it should not have.  Two DNA profiles were those of convicted 
offenders who had not violated a Kentucky statute for which DNA collection was permitted.  The third 
profile matched the DNA profile of a crime victim. The NDIS requirements prohibit laboratories from 
uploading DNA profiles that are unambiguously attributable to a victim.  In all three instances, the 
Laboratory removed the unallowable profile from the CODIS databases prior to our departure from the 
audit site and provided us documentation to that effect. 




The audit results are discussed in greater detail in the Finding and Recommendations section of the 
report.  Appendix I discusses our audit scope and methodology.  Appendix II provides the audit criteria.  
Appendix III contains general background information.  Appendix IV covers the history and status of DNA 
testing and CODIS use at the Laboratory.